No. 20-1513

IN THE SUPREME COURT OF THE UNITED STATES
JANE DOE, LUKE LOE, RICHARD ROE, and MARY MOE, individually and on behalf of all
others similarly situated
Plaintiffs,
RAJ K. PATEL
Intervenor-Plaintiff-Appellant-Petitioner,
v.

THE TRUMP CORP., DONALD J. TRUMP, in his personal capacity, DONALD TRUMP JR.
ERIC TRUMP, and IVANKA TRUMP
Defendants-Appellees-Respondents.

On Petition for a Writ of Certiorari to the United States Court of Appeals for the
Second Circuit in No. 20-1706, Circuit Judges Chin and Parker and
then-Chief Judge Stanceu of the United States Court of International Trade.

PETITIONER’S MOTION TO RECUSE
ASSOCIATE JUSTICE BARRETT FROM PETITION FOR RE-HEARING

Raj Patel, pro se
raj@rajpatel.live
317-450-6651
www.rajpatel.live

RECEIVED
JON 1 5 2021
Jup^FcT^fgm«

IN THE SUPREME COURT OF THE UNITED STATES
JANE DOE, LUKE LOE, RICHARD ROE,
and MARY MOE, individually and on behalf
of all others similarly situated,

Plaintiffs
RAJ PATEL,
Intervenor-Plaintiff-Appellant-Petitioner

No. 20-1513

v.
THE TRUMP CORPORATION, DONALD
J. TRUMP, in his personal capacity,
DONALD TRUMP JR., ERIC TRUMP, and
IVANKA TRUMP,
Defendants-Appellees-Respondents

PETITIONER’S MOTION TO RECUSE ASSOCIATE JUSTICE AMY BARRETT
ON THE PETITION FOR REHEARING {PRO SE)
Petitioner, Raj K. Patel (pro se), under 28 U.S.C. § 455(a) and (b)(1), respectfully moves
this United States Supreme Court that Hon. Amy Barrett, Associate Justice of the United States
Supreme Court, recuse herself from deliberation on the Petition for Re-Hearing for the Petition
of Writ of Certiorari, filed under Rule 10, in Patel v. Trump Corp. et al. (U.S. 202_), filed on
June 15,20211, for the pre-existing knowledge and as a possible witness to the happenings of
this event while Petitioner and then-Professor Amy Barrett were both at the University of Notre
Dame Law School in South Bend, Indiana.2 See Liteky v. United States, 510 U.S. 540, 551-553
(1994) (“plain language” argument). See also Downs v. Bidwell, 182 U.S. 244, 382 (1901) (“No

1. This Motion for Recusal is filed pro se and with protections from Fed. Exp. Corp. v.
Holowecki, 552 U.S. 389,402 (2008) (pro se filings “are construed liberally and held to a
less stringent standard than formal pleadings drafted by lawyers”).
2. Pet. for Writ of Cert., Patel v. Trump Corp. et al, No. 20-1513, p. 16 (U.S. 202_).
1

higher duty rests upon this Court than to exert its full authority to prevent all violation of the
principles of the Constitution.”) and U.S. v. Lee, 106 U.S. 196, 220 (1882) (Miller, J.):
No man in this country is so high that he is above the law. No officer of
the law may set that law at defiance with impunity. All the officers of the
government, from the highest to the lowest, are creatures of the law and are bound
to obey it. It is the only supreme power in our system of government, and every
man who by accepting office participates in its functions is only the more strongly
bound to submit to that supremacy and to observe the limitations which it imposes
upon the exercise of the authority which it gives.
Courts ofjustice are established not only to decide upon the controverted
rights of the citizens as against each other, but also upon rights in controversy
between them and the government, and the docket of this Court is crowded with
controversies of the latter class.
Shall it be said, in the face of all this and of the acknowledged right of the
judiciary to decide in proper eases statutes which have been passed by both
branches of Congress and approved by the President to be unconstitutional, that
the courts cannot give remedy when the citizen has been deprived of his property
by force, his estate seized and converted to the use of the government without any
lawful authority, without any process of law, and without any compensation,
because the President has ordered it and his officers are in possession?
If such be the law of this country, it sanctions a tyranny which has no
existence in the monarchies of Europe nor in any other government which has a
just claim to well regulated liberty and the protection of personal rights.
It cannot be, then, that when in a suit between two citizens for the
ownership of real estate, one of them has established his right to the possession of
the property according to all the forms of judicial procedure, and by the verdict of
a jury and the judgment of the court, the wrongful possessor can say successfully
to the court, “Stop, here; I hold by order of the President, and the progress of
justice must be stayed.” That though the nature of the controversy is one
peculiarly appropriate to the judicial function, though the United States is no party
to the suit, though one of the three great branches of the government to which by
the Constitution this duty has been assigned has declared its judgment after a fair
trial, the unsuccessful party can interpose an absolute veto upon that judgment by
the production of an order of the Secretary of War which that officer had no more
authority to make than the humblest private citizen;
In addition to Sections 455(a) and (b)(1) supporting Justice Barrett’s recusal from
conference on the already-filed Petition for Re-Hearing, Canon 2B of the Code of Conduct for

2

United States Judges would support Associate Justice Barrett’s recusal because Justice Barrett
brings in outside influence (1) by possibly socializing about the matter-at-hand with her former
colleagues, my professors, at the Notre Dame Law School, of the on-going battery,3 (2) by
receiving an e-mail, from Petitioner, about facts stipulated, in the case-at-hand, possibly in Fall
2017, prior to him withdrawing from the Notre Dame Law School, and (3) by possibly having
unethical discussions about the case-at-hand, which lays through four presidencies or more (e.g.
George W. Bush, Barack H. Obama, Donald J. Trump, President Joseph R. Biden, etc.), by
material facts for recusal emerge, saliently, under President Trump, while Hon. Barrett was
vetted by then-President Trump and his Administration, including Respondents Ivanka and Don
Jr. and possibly Respondent Eric, for nomination to United States Senate for confirmation to her
incumbent position as Associate Justice of the United States Supreme Court.4
If the allegations stated in the Petition of Writ of Certiorari are true, Respondent Donald
J. Trump and Associate Justice Barrett possibly have broken United States treaty on political
succession against Petitioner,5 qualify for impeachment, and violated laws of recusal and Code
of Ethics for United States Judges.6 Therefore, Due Process7 also demands that Associate Justice
Barrett recuse herself.8

3. See also Grievance 23, Decl. of Independence (1776).
4. See also Grievances 8 & 9, Decl. of Independence (1776).
5. See also Grievance 6, Deck of Independence (1776).
6. See generally International Covenant on Civil & Political Rights (ICCPR), United Nations
General Assembly Resolution 2200A (XXI).
7. U.S. const., amends. V and XIV.
8. See also Grievances 8 & 9, Deck of Independence (1776).
3

CONCLUSION
For the foregoing reasons, I, Raj K. Patel (Petitioner pro se), respectfully request this
Supreme Court that Associate Justice Amy Barrett recuse herself from conference and
deliberations for this case-at-hand, under 28 U.S.C. § 455(a) and (b)(1), the Code of Conduct for
United States Judges, and the aforementioned Supreme Court cases.
I waive my right to oral argument.

Dated: June 18,2021
Respectfully submitted,

laj K. Patel
1239 Spring Lake Drive
Brownsburg, IN 46112
Hendricks County
317-450-6651 (cell)
rajp2010@gmail.com
raj@raipatel.live
Pro se
J.D. Candidate, Notre Dame L. Sch. 2021 or 2022
President/Student Body President, Student Gov’t
Ass’n of Emory U., Inc. 2013-2014
Student Body President, Brownsburg Cmty. Sch.
Corp./President, Brownsburg High Sch. Student
Gov’t 2009-2010
Rep. from the Notre Dame L. Sch. Student B. Ass’n
to the Ind. St. B. Ass’n 2017
Deputy Regional Director, Young Democrats of
Am.-High Sch. Caucus 2008-2009
Co-Founder & Vice Chair, Ind. High Sch.
Democrats 2009-2010
Vice President of Fin. (Indep.), Oxford C.
Republicans of Emory U., Inc. 2011-2012

4

CERTIFICATION OF A PARTY UNREPRESENTED BY COUNSEL
I hereby certify that this Motion for Recusal is presented in good faith and not for delay,
and that it is restricted to the grounds specified in Supreme Court Rule A4.2 h/

Raj K. Patel (provse)

5

IN THE SUPREME COURT OF THE UNITED STATES

RAJ PATEL,
Intervenor-Plaintiff-Appellant-Petitioner

v.

No. 20-1513

THE TRUMP CORPORATION, DONALD
J. TRUMP, in his personal capacity,
DONALD TRUMP JR., ERIC TRUMP, and
IVANKA TRUMP,
Defendants-Appellees-Respondents

CERTIFICATE OF COMPLIANCE
I, Raj Patel (pro se), hereby certify that, according to the word-count tool in Microsoft
Word, Petitioner’s Motion to Recuse Associate Justice Amy Barrett on the Petition for Rehearing.
(Pro Se) of 1,026 words, excluding the sections enumerated by Rule 33.1(d). The writ therefore
complies with Rule 33.1(g).

Respectfully submmed,

Raj K. Patel /
1239 Spring Lake Drive
Brownsburg, IN 46112
317-450-6651 (cell)
raj@raipatel.live
Pro se

1

CERTIFICATE OF SERVICE
I, Raj K. Patel (pro se), certify I filed the preceding Certificate of Compliance on the
Petition for Re-Hearing, by U.S.P.S. mail, and I certify I provided notice of filing to counsel of
record below, by U.S.P.S. mail:
Joanna C. Hendon
ALSTON & BIRD LLP
90 Park Avenue, 15th Floor
New York, NY 10016-1387
Telephone: 212-210-1244
joanna.hendon@alston.com

Dated: June 18, 2021

Respectfully subjninled,

Raj K. Patel /
1239 Spring Lake Drive
Brownsburg, IN 46112
317-450-6651 (cell)
rajp2010@gmail.com
rai@raipatel.live
www.raipatel.live
Pro se

2

